THE DEPARTMENT OF TRANSPORTATION
   CAN IMPROVE OVERSIGHT OF THE
    DENALI COMMISSION’S USE OF
  FEDERAL TRANSPORTATION FUNDS
       Federal Highway Administration

        Report Number: MH-2011-038
        Date Issued: February 9, 2011
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: The Department of                                            Date:    February 9, 2011
           Transportation Can Improve Oversight of the
           Denali Commission’s Use of Federal
           Transportation Funds
           Federal Highway Administration
           Report Number MH-2011-038

  From:    Joseph W. Comé                                                         Reply to
                                                                                  Attn. of:   JA-40
           Assistant Inspector General
              for Highway and Transit Audits

    To:    Federal Highway Administrator

           Alaska’s size and the remoteness of its cities and villages present significant
           transportation challenges. In 2005, Congress created the Denali Access System
           Program (transportation program) to fund Alaskan road and waterfront
           development projects that provide economic opportunities and improve residents’
           quality of life, health, and safety.        Since 2006, the Federal Highway
           Administration (FHWA) and the Federal Transit Administration (FTA) have
           transferred more than $100 million to the Denali Commission (Commission), the
           independent Federal agency that selects the transportation projects.

           To gain a better understanding of how the Commission uses its Federal
           transportation funds, Senator Christopher S. Bond 1 requested that the Office of
           Inspector General review the Department of Transportation’s (DOT) and the
           Commission’s administration of the program. Specifically, we (1) identified the
           purpose, funding, and status of the Commission’s projects funded through FHWA
           and FTA, (2) assessed the Commission’s project selection process, and
           (3) examined FHWA’s oversight of the Commission’s use of DOT funds.

           To conduct our work, we interviewed Federal, Alaska, and Commission officials;
           reviewed applicable laws, regulations, and policies; and analyzed DOT and
           Commission records in Washington, D.C., and Anchorage, Alaska. We conducted

           1
               Ranking Member of the Senate Appropriations Subcommittee on Transportation, Housing, and Urban Development
               and Related Agencies.
                                                                                                                      2


this audit from November 2009 through November 2010 in accordance with
generally accepted government auditing standards for performance audits.
Additional details of our objectives, scope, and methodology are described in
exhibit A.

RESULTS IN BRIEF
From 2006 through 2009, 2 the Commission approved $92.7 million in grants for
138 projects intended to enhance access to and facilitate economic growth in rural
Alaska, as provided for in the Denali Commission Act. 3 According to the
financial assistance agreements for a statistical sample of projects, the
transportation projects included funds to plan, engineer, and construct roads and
develop waterfront ports, landings, and facilities. For example, a $545,150 grant
funded a planning study for an access road in a remote settlement, and a $520,000
grant funded a boat harbor rehabilitation project. Of the 138 projects approved, 91
were in either the design or the construction phase, with 29 projects completed, 4 as
of June 2010.

While the Denali Commission approved appropriate types of projects, its project
selection policy and process were insufficient to ensure that selections were made
objectively and were transparent. Although the Commission has project
evaluation criteria, selecting officials did not use them for almost 20 percent of
project selections that totaled $5.6 million. In those instances, the Commission
used a discussion and consensus method that relied on the professional judgment
of the selecting officials. However, documentation, such as detailed meeting
minutes or transcripts, that explains the rationale for the selections is lacking.
Moreover, the Commission’s limited ethics guidance does not ensure that project
selection officials appropriately recuse themselves from the selection process.
Additionally, selection officials are not required to, and do not, follow Federal
conflicts of interest prevention measures, such as attending ethics training, signing
ethics agreements, or submitting financial disclosure reports. As a result, the
Commission has no mechanisms by which to verify and hold selection officials
accountable for appropriately recusing themselves. Nevertheless, we did not find
specific instances of conflicts of interest.

Further, Federal oversight of the transportation program was limited and we found
shortfalls with required project documentation. FHWA primarily relies on the
Commission, which in turn relies on the entities such as the Alaska Department of
Transportation and Public Facilities, to maintain and self-report compliance with

2
    All references are to fiscal years—October 1 through September 30.
3
    Public Law 105-277.
4
    For the purposes of this audit, we defined a complete project as one where all phases of work (planning, design, and
    construction) have been completed and final inspections have been conducted.
                                                                                                                    3


the Denali Commission Act’s project development and management requirements.
Yet, neither FHWA nor the Commission adequately verified this information to
ensure projects met Federal requirements. According to FHWA officials,
Commission projects are low risk compared to other agency responsibilities.
Further, Commission officials informed us that implementing entities demonstrate
compliance with Federal requirements by maintaining detailed project information
on-site. However, when we requested such project information from four selected
implementing entities, three did not provide evidence of their full compliance with
the Denali Commission Act. For example, the U.S. Army Corps of Engineers
(USACE) did not provide us the required project plans, specifications, and
estimates document for a project that received $1 million in Commission funds.

We are making a series of recommendations for FHWA to assist the Commission
in addressing these concerns. In responding to a draft of this report, FHWA
concurred with our recommendations and provided a description of actions taken
to address issues related to project selection and oversight. A complete discussion
of FHWA's comments to our draft report begins on page 11.

BACKGROUND
In 1998, Congress established the Commission as an independent Federal agency
to provide infrastructure, economic development, job training, and utilities in
Alaska. The Safe, Accountable, Flexible, and Efficient Transportation Equity Act
of 2005: A Legacy for Users (SAFETEA-LU) 5 established the transportation
program and, from 2006 through 2009, authorized FHWA and FTA to allocate
funds for road and waterfront projects to improve access and provide economic
development opportunities for Alaskan communities and villages (see table 1). 6




5
    Pub. L. 109-59.
6
    In a recent appropriations decision, the Comptroller General concluded that FTA does not have an oversight role in
    administering funds transferred to the Commission. Comptroller General of the United States, B-319189, “Denali
    Commission—Transfer of Funds Made Available through the Federal Transit Administration's Appropriations,”
    November 12, 2010.
                                                                                                                    4


Table 1: Transportation Program Funding by DOT Agency, 2006
through 2009
Projects            Purpose                                              Agency             Funds Transferred
Road                Planning, designing, engineering, and
                    constructing road, and other surface                 FHWA               $15 million annually
                    transportation infrastructure
Waterfront          Docks, waterfront development projects,
                                                                         FTA                $5 million annually
                    and related transportation infrastructure
Waterfront          Docks, waterfront development projects,
                                                                         FHWA               $20 million total
                    and related transportation infrastructure

Source: SAFETEA-LU, Pub. L. 109-59



Alaska’s size and the remoteness of its communities and villages present
significant transportation challenges. The transportation program is designed to
address these challenges. For example, the program funds the construction of
boardwalks to provide a safe road surface for all-terrain vehicles and lessen the
environmental impact on tundra, 7 which cannot easily support permanent roads.
Similarly, the program funds waterfront improvement projects to enhance access
to marine services and improve the safety and efficiency of cargo and fuel
delivery. Many settlements receive cargo, supplies, and fuel only by air or at
small barge landing facilities. Figure 1 shows before and after images of a
Commission-funded waterfront development project in Yakutat Borough, Alaska.


Figure 1. Multi-Purpose Dock Project, Yakutat Borough, Alaska




                        Fall 2008                                                Spring 2009

Source: Denali Commission


7
    Tundra is a level or treeless rolling plain that is characteristic of arctic and subarctic regions. Its soil has a
    permanently frozen subsoil called permafrost. Soil conditions are poor, being marshy or waterlogged.
                                                                                                             5




The Commission relies on the Transportation Advisory Committee (TAC) to
select transportation projects. The Commission’s Federal Co-Chair approves the
project selections for funding. The TAC members include:

• the Federal Co-Chair, who is appointed by the U.S. Secretary of Commerce,
  and

• eight appointees of the Governor of Alaska—four representatives of regional
  native corporations, non-profit entities, or tribal governments and four
  representatives of rural Alaska regions or villages.

The Commission does not directly implement transportation projects. Instead,
other entities, including USACE; FHWA’s Western Federal Lands Highway
Division Office; Alaska Department of Transportation and Public Facilities; and
regional, local, and tribal governments, implement Commission projects supported
with Federal funds.

COMMISSION PROJECT SELECTIONS ARE CONSISTENT WITH
THE DENALI COMMISSION ACT
The Commission selected transportation projects intended to enhance access and
facilitate economic growth by improving rural infrastructure in Alaska, as
provided for in the Denali Commission Act (exhibit B lists each project, the
associated Commission-awarded funds, and the project’s status). According to the
financial assistance agreements for a statistical sample of 32 of 138 projects, the
Commission selected projects to plan, engineer, and construct roads and develop
waterfront ports, landings, and facilities that will enhance access and facilitate
economic development. Because our review was limited to determining the
purpose, status, and funding of the Commission's transportation projects, we did
not assess how effectively each implementing entity used the Federal funds on
individual projects.

From 2006 through 2009, FHWA and FTA allocated $97.3 million to the
Commission. 8     After deducting its allowable 5 percent for administrative
expenses, the Commission approved $92.7 million for 75 road and 63 waterfront
development projects (see table 2). Of the 138 projects, 91 were in either the
design or the construction phase, with 29 projects completed, as of June 2010.



8
    For 2010, Congress appropriated an additional $21.3 million to DOT ($16.3 million to FHWA and $5 million to
    FTA) for the Commission’s transportation program. These funds were outside our audit scope.
                                                                                                  6


Table 2: Transportation Projects and Federal Funds
Type of Project                               Number of Projects                 Federal Funds
Road                                                    75                        $58,508,483
Waterfront Development                                  63                        $34,259,739
Total                                                  138                        $92,768,222

Source: Denali Commission



Commission-funded transportation projects selected from 2006 through 2009 cost
from $15,000 to $3.5 million each, with an average cost of about $672,000. Road
improvement projects averaged about $780,000 each, and waterfront development
projects averaged about $544,000 each. Examples of road and waterfront projects
with their Commission funding are shown in table 3.

Table 3: Examples of Commission-funded Road and Waterfront
Development Projects
                                                                                      Commission
Location                               Population         Project Purpose               Funds
                                                    Planning study for an access
Stevens Village, Central Alaska              87                                        $545,150
                                                    road
City of Bethel, Western Alaska            5,471     Boat harbor rehabilitation         $520,000
Village of Tatitlek, Southern Alaska        107     Dock design and repair             $367,000
City of Cordova, Southern Alaska          2,454     Dust control on roads              $311,000
City of Kodiak, Southern Alaska           6,334     Cargo terminal repair              $300,000

Source: U.S. Census Bureau and Denali Commission




PROJECT SELECTION PROCESS LACKS OBJECTIVITY AND
TRANSPARENCY
While we did not identify specific conflicts of interest, the Commission's policy
and process were insufficient to ensure that transportation project selections are
objective and transparent. Although the Commission has project evaluation
criteria, the TAC did not use them for almost 20 percent of its project selections.
In addition, the Commission did not document the basis for these selections.
Moreover, the Commission’s limited ethics guidance did not ensure that TAC
members appropriately recused themselves from the project selection process.
                                                                                       7


The Commission lacks a policy that defines the circumstances under which the
TAC should use one of its two project selection methods—scoring and ranking or
discussion and consensus.

• Scoring and Ranking: TAC members score proposed projects using the
  Commission’s evaluation criteria—health and quality of life, safety, public
  support, and economic value—then rank projects using a weighted average of
  the members’ scores for each criterion (exhibit C lists the evaluation criteria).

• Discussion and Consensus: TAC members rely solely on their professional
  judgment to select projects.

From 2006 through 2009, the TAC used the scoring and ranking method to select
about 80 percent of its projects and used the less objective and transparent
discussion and consensus method to select almost 20 percent of the projects (see
table 4 for the number, percentage, and funding of projects by selection method).
The scoring and ranking method analyzes each project based on a list of
characteristics included in Commission guidance for grant applicants and the
TAC. Each characteristic is weighted to indicate its importance in the project
selection process. The guidance also provides assessment criteria to assist each
TAC member in scoring and ranking project applications. The Commission
publishes this guidance on its website. In contrast, selections made using the
discussion and consensus method are based on subjective input from TAC
members, rather than predetermined, published criteria.

Table 4: Commission-funded Road and Waterfront Development
Projects, by Selection Method, 2006 through 2009
                                                     Percentage of    Commission
     Selection Method           Number of Projects     Projects         Funds
Scoring and Ranking                       111            80.4%         $87.1 million
Discussion and Consensus                  27             19.6%          $5.6 million
Total                                     138           100.0%         $92.7 million

Source: OIG analysis of Commission data



Commission officials stated that the TAC uses discussion and consensus primarily
to select projects for worthy recipients that lack the capacity to produce a
competent project application, as well as for planning and technical services
projects. However, we could not verify why the TAC used the discussion and
consensus method for 27 projects because the Commission did not document the
specific reasons for using this method or the rationale for selecting these projects.
For example, meeting minutes did not explain why the TAC selected a
                                                                                                             8


$1.5 million barge landing system design project in 2009 or make mention of a
$50,000 public dock reconnaissance project selected in 2008. The lack of
documentation limits the transparency of how and why the TAC selects projects.

Moreover, the Commission’s limited ethics guidance does not ensure that TAC
members appropriately recuse themselves from the project selection process. The
guidance merely advises TAC members to recuse themselves from voting when
they, their employer, or a family member might benefit from a project selection.
Commission officials stated that recusals occurred and were documented in TAC
meeting minutes. However, our review of TAC meeting minutes covering project
selections from 2006 through 2009 found no mention of recusals. Commission
officials could not explain why the minutes did not document the recusals.

TAC members are not required to, and do not, follow Federal conflicts of interest
prevention measures, such as attending ethics training, signing ethics agreements,
or submitting financial disclosure reports. According to the Commission’s
designated agency ethics official, TAC members are not special government
employees, 9 and therefore, are not required to comply with the Federal measures.
We do not contest the ethics official’s interpretation. However, without such
conflicts of interest prevention measures, the Commission has no mechanisms by
which to verify and hold TAC members accountable for appropriately recusing
themselves. The Federal requirements represent sound practices that could help
the Commission ensure selection decisions are free from conflicts of interest. For
example, annual ethics training would ensure that TAC members are advised of
their responsibility to avoid the appearance of and actual conflicts of interest in
carrying out their duties. Requiring TAC members to certify that conflicts of
interest are fully disclosed prior to project selection activities would enable the
Commission to hold the TAC accountable for complying with the guidance.

FHWA RELIES ON THE COMMISSION’S LIMITED OVERSIGHT TO
ENSURE COMPLIANCE WITH FEDERAL REQUIREMENTS
Neither FHWA nor the Commission adequately verified the implementing entities'
compliance with the requirements of the Denali Commission Act through actions
such as on-site inspections and review of supporting documentation. Instead,
FHWA primarily relies on the Commission, which in turn relies on the entities
implementing the projects, to maintain and self-report compliance with Federal
project management requirements.       The Commission applies the project
management requirements included in Federal-aid highway law—Title 23 United
States Code (23 U.S.C.)—to all transportation projects. These requirements

9
    A special government employee is an officer or employee of the Executive or Legislative Branch of the
    U.S. Government, who can perform, with or without compensation, temporary duties for not more than 130 days
    during any period of 365 consecutive days.
                                                                                                            9


include the completion of environmental assessments and certifications, project
plans, specifications, and cost estimates and the effective management of project
construction. For example, developing a right-of-way plan is a required step when
constructing a public road on private property.

FHWA performs a limited role in the oversight of transportation projects, relying
on the Commission to determine compliance with 23 U.S.C. requirements.
However, FHWA still must ensure the Commission's oversight is appropriate and
effective. FHWA's limited oversight includes the review of periodic reports from
the Commission summarizing project development and construction activities.
FHWA staff members also attend TAC meetings, communicate informally with
the Commission on project activities, and conduct occasional site visits.
Commission officials stated that FHWA acts as an advisor on policy and program
development procedures. According to FHWA Alaska Division officials, their
oversight of projects is minimal because of the projects' relatively low funding and
their placement outside the Division Office’s top 10 program risks. For example,
the Division Office considers Alaska’s $291 million Federal-aid highway formula
funds 10 a higher risk than the $25 million annual funding for Commission projects.

Currently, the Commission relies primarily on the entities implementing the
projects, such as USACE or tribal governments, to maintain and self-report
compliance. According to Commission officials, their oversight consists of
informal interactions with the implementing entities through telephone
conversations, site visits, e-mails, community meetings, and observations of
bidding for construction contracts. However, the Commission does not routinely
verify the information entities provide. Our review of Commission files for 32 of
138 transportation projects confirmed that the Commission did not routinely verify
the information the entities provided, but rather relied on self-reported
information.    The files consisted mostly of documents provided by the
implementing entities. Commission officials told us that the 5 percent cap on
Commission administrative expenses constrained their travel to remote sites.

Although Commission officials told us the implementing entities demonstrate their
compliance with 23 U.S.C. by maintaining detailed project information on-site, the
information we reviewed for four projects from our sample did not fully
demonstrate such compliance. Specifically, we requested that the implementing
entities for the selected projects 11 provide us with the requisite documentation,
such as environmental surveys and assessments, project plans, project schedules,
structural designs, and safety assessments. In response, each implementing entity

10
     The 2009 obligation limitation distribution pursuant to Division I, Title I, Section 120 of the Omnibus
     Appropriations Act, 2009, Pub. L. 111-8.
11
     We requested information from USACE, Western Federal Lands Highway Division Office, the Alaska Department
     of Transportation and Public Facilities, and the city of Sitka.
                                                                                              10


provided varying amounts of documentation—with all four providing
environmental surveys and assessments. However, three of the four provided
insufficient documentation to fulfill the requirements of 23 U.S.C. (see table 5 for
details). For example, when we requested documentation from USACE on the
Chignik Small Boat Harbor, USACE did not provide the approved plans;
specifications; and costs estimates document, which includes such details as the
project design, scope, materials, schedule, and measurements.              Without
documentation to demonstrate compliance, the Commission cannot ensure that
projects are fiscally sound, efficient, and effective.

Table 5: Selected Implementing Entities’ Documentation of
23 U.S.C. Compliance

                                                    Commission
Implementing Entity           Project Name            Funds         Title 23 Compliance Issues
Western Federal Lands                                               Documentation demonstrated
                          Coffman Cove Dock         $1.65 million
Highway Division Office                                             compliance
                          Old Thomsen Harbor                        Plans, specifications, and cost
City of Sitka                                       $1.30 million
                          Replacement                               estimates not provided
                          Chignik Small Boat                        Plans, specifications, and cost
USACE                                               $1.00 million
                          Harbor                                    estimates not provided
Alaska Department of
                          Gustavus Transient                        Plans, specifications, and cost
Transportation and                                  $0.81 million
                          Vessel Mooring Facility                   estimates not provided
Public Facilities
Source: OIG analysis




CONCLUSION
Congress directed the Denali Commission to implement a road and waterfront
development program using funds allocated from DOT to improve access to vital
services in rural Alaska. While FHWA does not have direct oversight of this
program, FHWA has a stewardship responsibility, along with the Commission, to
ensure that Federal funds are spent wisely. Therefore, FHWA should play a role
in ensuring that project selections are objective and transparent, conflicts of
interest are disclosed and mitigated, and projects comply with applicable statute.
We recognize the need for FHWA to allocate its oversight resources according to
risk and that this program is far smaller than some others for which FHWA is
responsible. However, targeted advice and assistance to the Commission, based
on FHWA’s experience overseeing transportation projects, would strengthen its
capability to ensure that Federal transportation funds are spent efficiently,
effectively, and appropriately.
                                                                                 11


RECOMMENDATIONS
To ensure that the project selection process is objective and transparent, we
recommend that the Federal Highway Administrator advise the Commission to:

1. Eliminate the discussion and consensus            method or define limited
   circumstances in which its use is appropriate.

2. Maintain detailed minutes, such as transcripts, of TAC project selection and
   funding discussions, including recusals from scoring and voting and the basis
   for each recusal.

To ensure TAC members’ selection decisions are free from conflicts of interest,
we recommend that the Federal Highway Administrator collaborate with the
Commission to:

3. Establish annual training for TAC members on how to avoid the appearance of
   or actual conflicts of interest,

4. Develop a requirement for TAC members to certify that the appearance of or
   actual conflicts of interest are fully disclosed prior to project selection
   activities, and

5. Design mechanisms for Commission staff to verify that TAC members
   participate in annual training, fully disclose conflicts of interest, and recuse
   themselves appropriately.

To ensure that the Commission receives the information and documentation
necessary to determine whether transportation projects are constructed in a fiscally
sound, efficient, effective, and appropriate manner, we recommend that the
Federal Highway Administrator collaborate with the Commission to:

6. Develop an oversight process that specifies the Commission’s responsibilities
   and actions to verify that grantee-supplied information demonstrates
   compliance with applicable 23 U.S.C. requirements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA a draft of this report on November 24, 2010, and received
formal, written comments on January 26, 2011. FHWA's comments are included
as an appendix to this report. FHWA fully concurred with our recommendations,
and provided documentation demonstrating the actions it has taken to assist the
                                                                               12


Commission in addressing the project selection and oversight issues raised in this
report. Accordingly, we consider all recommendations closed.

Although FHWA has a limited oversight role, it promptly addressed the
recommendations in this report. FHWA reported that the Commission is
developing a set of provisions that more clearly define the appropriate use of the
discussion and consensus method of project selection. FHWA advised the
Commission on the importance of maintaining detailed minutes of TAC meetings,
including TAC member recusals from scoring and voting and the basis for each
recusal. FHWA has also advised the Commission that the Federal model for
avoiding conflict of interest represents sound practices that could better assure
selection decisions are free from actual or perceived conflicts of interest, and
provided relevant training materials for the Commission's review and
consideration. The Commission is revising its TAC Roles and Responsibilities to
require that members receive annual ethics training and certify when a member
has a conflict of interest. According to the Commission, the conflicts of interest
certifications will be retained in the record of each TAC proceeding. FHWA
states that it will continue to collaborate with the Commission to achieve a
strengthened conflict of interest process and ethics training program.

FHWA acknowledges that although the Commission has processes and
agreements in place to address compliance with 23 U.S.C., those oversight
processes can be strengthened. FHWA provided the Commission FHWA's
program and risk analysis standard operating procedures to be used as a
framework for improving the Commission's procedures. FHWA has committed to
provide continuing technical assistance to help the Commission further strengthen
its oversight review and processes.

ACTIONS REQUIRED
Based on actions FHWA has taken, and our review of the documentation provided
in response to our draft report, we consider all recommendations resolved. No
further actions are required, and we are issuing this final report with all
recommendations closed.

We appreciate the courtesies and cooperation of DOT representatives and officials
of the Denali Commission during this audit. If you have any questions concerning
this report, please call me at (202) 366-5630, or Gary Middleton, Program
Director, at (202) 366-0625.

                                        #

cc: Federal Transit Administrator
    Audit Liaison, OST
                                                                                  13



EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objective was to review the Department of Transportation’s (DOT) and
the Denali Commission’s (Commission) use of Federal transportation funds.
Specifically, we (1) identified the purpose, funding, and status of the
Commission’s projects funded through FHWA and FTA; (2) assessed the
Commission’s project selection process; and (3) examined FHWA’s oversight of
the Commission’s use of DOT funds.

To assess the Commission’s use of FHWA and FTA funds and DOT’s oversight
of the Commission, we reviewed Federal laws and regulations pertaining to the
Commission’s transportation program.         We evaluated the Commission’s
transportation program policies, guidance, procedures, and practices for selecting
projects and awarding grants.         We interviewed Commission officials in
Anchorage, Alaska, as well as officials in FHWA Headquarters and Alaska
Division Office in Juneau Alaska; Western Federal Lands Highway Division
Office in Vancouver, Washington; FTA Headquarters and Region 10 in Seattle,
Washington; the U.S. Army Corps of Engineers at Elmendorf Air Force Base,
Alaska; the U.S. Office of Government Ethics; and the Alaska Department of
Transportation and Public Facilities in Anchorage, Alaska. We did not assess how
effectively each implementing entity was using the Federal funds on individual
projects.

With OIG’s senior statistician, we selected a statistical sample of 32 of the 138
Commission transportation projects from 2006 through 2009. In reviewing the
sample projects’ financial assistance agreements, we found that all were consistent
with the purposes of the Denali Commission Act. Therefore, we estimate that all
the 2006 through 2009 projects are consistent with the purposes of the Act. This
estimate has a 5-percent sampling error at the 90-percent confidence level, which
means that we are 90 percent certain that the percentage of project funds that is not
consistent with the Act is between 0 and 5 percent.

To verify the reliability of the project information in exhibit B, we compared the
Commission’s list of transportation projects, including each project’s status, with
source documentation at the Commission’s offices and in the Commission’s
electronic reporting system. We also compared the Commission’s funding data
with information from FHWA and FTA and found no significant discrepancies.

To assess the Commission’s assertion that 23 U.S.C. compliance requirements are
supported by detailed records maintained by the implementing entities, we
analyzed the records for four projects selected from our statistical sample of 32
projects. We selected the projects in a three-stage process. We first grouped the
projects by implementing entity (Western Federal Lands Highways Division, the
U.S. Army Corps of Engineers, the Alaska Department of Transportation and

Exhibit A. Objecti ves, Scope, and Methodology
                                                                                14


Public Facilities, and small individual grantees). We then identified the most
complete projects within each implementing entity. From the list of most
complete projects, we then selected the project with the largest dollar amount from
each implementing entity group. Because our review of the implementing entities’
records was limited, we are not projecting the results to all Commission projects.

To assess how the Commission addresses ethics issues, we interviewed
knowledgeable individuals at the U.S. Office of Government Ethics, the
Commission’s designated agency ethics official, and OIG’s legal advisors. We
also evaluated Transportation Advisory Committee meeting minutes and project
lists to determine whether the discussion and consensus process and recusals based
on conflicts of interest were adequately documented.

We conducted this performance audit from November 2009 through
November 2010 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Objecti ves, Scope, and Methodology
                                                                                       15



EXHIBIT B. COMMISSION-FUNDED TRANSPORTATION
PROJECTS BY IMPLEMENTING ENTITY, FISCAL YEARS 2006
THROUGH 2009

                                                               June 2010        Project
                                                 Commission     Project        Selection
Implementing Entity         Road Project           Funds        Status*         Method
Alaska Department of
                       Akutan Marine Link to                                 Scoring and
Transportation and                               $1,000,000   Design
                       Airport                                               ranking
Public Facilities
Alaska Department of
                       AUTC DOT&PF Dust                                      Discussion
Transportation and                                $239,965    Design
                       Control Research                                      and consensus
Public Facilities
Alaska Department of
                       Cantwell Community                                    Scoring and
Transportation and                                $664,229    Complete
                       Roads                                                 ranking
Public Facilities
Alaska Department of
                       Circle/Circle City                                    Scoring and
Transportation and                                $900,000    Construction
                       Community Roads                                       ranking
Public Facilities
Alaska Department of
                       Coffman Cove Road                                     Scoring and
Transportation and                                  $3,000    Design
                       Paving                                                ranking
Public Facilities
Alaska Department of
                       Coffman Cove Roads                                    Scoring and
Transportation and                                $848,280    Construction
                       Paving                                                ranking
Public Facilities
Alaska Department of
                       Cold Bay Road                                         Scoring and
Transportation and                                $136,455    Design
                       Improvements                                          ranking
Public Facilities
Alaska Department of
                       Eagle, Eagle Village                                  Scoring and
Transportation and                               $1,182,610   Construction
                       Community Roads                                       ranking
Public Facilities
Alaska Department of   Elfin Cove Boardwalk
                                                                             Scoring and
Transportation and     Design, Construction,      $181,940    Design
                                                                             ranking
Public Facilities      and Repairs
Alaska Department of
                       Emmonak Community                                     Scoring and
Transportation and                               $1,819,400   Design
                       Roads                                                 ranking
Public Facilities
Alaska Department of
                       Fort Yukon Dust Control                               Scoring and
Transportation and                               $1,819,400   Construction
                       Design and Construction                               ranking
Public Facilities
Alaska Department of
                       Pelican Board-Road                                    Scoring and
Transportation and                                $272,910    Complete
                       Reconstruction Phase I                                ranking
Public Facilities
Alaska Department of
                       Pelican Board-Road                                    Scoring and
Transportation and                                $267,547    Complete
                       Reconstruction Phase II                               ranking
Public Facilities



Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                          16


                                                                  June 2010        Project
                                                    Commission     Project        Selection
 Implementing Entity           Road Project           Funds        Status*         Method
Alaska Department of
                         Pelican Board-Road                                     Scoring and
Transportation and                                   $393,886    Construction
                         Reconstruction Phase III                               ranking
Public Facilities
Alaska Department of
                         Port Alexander                                         Scoring and
Transportation and                                   $181,940    Complete
                         Boardwalk                                              ranking
Public Facilities
Alaska Department of
                         Port Alexander South                                   Scoring and
Transportation and                                   $254,716    Design
                         Cedar Street Boardwalk                                 ranking
Public Facilities
Alaska Department of     Selawik-Skin Street
                                                                                Scoring and
Transportation and       Barge Landing Road          $727,760    Complete
                                                                                ranking
Public Facilities        Reconstruction
Alaska Department of
                         Takotna Gold Creek                                     Scoring and
Transportation and                                   $272,910    Design
                         Bridge Replacement                                     ranking
Public Facilities
Alaska Department of
                         Tanana Community                                       Scoring and
Transportation and                                    $41,883    Design
                         Roads Dust Control                                     ranking
Public Facilities
Alaska Department of
                         Togiak Main Road                        Cancelled/On Scoring and
Transportation and                                   $727,760
                         Rehabilitation                          Hold         ranking
Public Facilities
Alaska Native Tribal     Nunam Iqua Board-Road                                  Scoring and
                                                     $354,350    Design
Health Consortium        Design                                                 ranking
Alaska Native Tribal     Pitka’s Point Sanitation                               Scoring and
                                                     $460,000    Construction
Health Consortium        Road                                                   ranking
Alaska Village Electric Hooper Bay Access                                       Scoring and
                                                     $199,531    Complete
Cooperative             Road Construction                                       ranking
                        Hooper Bay Wind
Alaska Village Electric                                                         Discussion
                        Turbine Access Road          $215,000    Complete
Cooperative                                                                     and consensus
                        Construction
                         Bethel and Oscarville
Association of Village                                                          Discussion
                         Road Reconnaissance         $150,000    Planning
Council Presidents                                                              and consensus
                         Engineering
                         Nunam Iqua Boardwalk
Association of Village                                                          Scoring and
                         Construction and            $100,000    Construction
Council Presidents                                                              ranking
                         Extension
Association of Village   Pilot Station Community                                Scoring and
                                                     $165,000    Design
Council Presidents       Streets Rehabilitation                                 ranking
Association of Village   Regional Roads Planning                                Discussion
                                                     $100,000    Construction
Council Presidents       and Reconnaissance                                     and consensus
Bristol Bay Native       Clarks Point- Ekuk Road                                Scoring and
                                                      $50,000    Planning
Association              (Road Recon)                                           ranking




Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                        17


                                                                June 2010        Project
                                                  Commission     Project        Selection
 Implementing Entity         Road Project           Funds        Status*         Method
Bristol Bay Native      Pilot Point Dago Creek                                Scoring and
                                                   $151,455    Design
Association             Road Realignment                                      ranking
Chenega Indian          Community Streets
                                                                              Scoring and
Reorganization Act      Rehabilitation/Harbor     $1,308,360   Complete
                                                                              ranking
Village Council         Access
City and Borough of     Indian River Road                                     Scoring and
                                                   $750,000    Complete
Sitka                   Rehabilitation                                        ranking
                        Dust Control with Roads                               Scoring and
City of Cordova                                    $311,000    Complete
                        Surfacing                                             ranking
                        School Loop Road                                      Scoring and
City of Sand Point                                $1,500,000   Design
                        Rehabilitation                                        ranking
Craig Community         Community Streets                                     Scoring and
                                                  $1,000,000   Construction
Association             Rehabilitation                                        ranking
Craig Community         Port Saint Nicholas Road                              Scoring and
                                                 $1,000,000    Complete
Association             Reconstruction                                        ranking
Dept. of Commerce,
Community, and                                                                Discussion
                        Ortho Mapping              $160,000    Planning
Economic                                                                      and consensus
Development
Gulkana Village         Gulkana Access Road                                   Scoring and
                                                  $1,800,000   Design
Council                 Reconstruction                                        ranking
Igiugig Tradition       Igiugig High Ridge                                    Scoring and
                                                    $81,000    Construction
Council                 Subdivision Road                                      ranking
                        Brevig Mission                                        Scoring and
Kawerak, Inc.                                     $1,000,000   Construction
                        Community Streets                                     ranking
                        Gambell Evacuation                                    Scoring and
Kawerak, Inc.                                     $1,000,000   Construction
                        Road                                                  ranking
                        Koyuk Community                                       Scoring and
Kawerak, Inc.                                     $1,000,000   Complete
                        Streets                                               ranking
                        Shaktoolik Evacuation                                 Scoring and
Kawerak, Inc.                                       $55,000    Planning
                        Road                                                  ranking
                        Unalakleet Community                                  Scoring and
Kawerak, Inc.                                     $1,700,000   Construction
                        Roads                                                 ranking
                        Unalakleet Community
                                                                              Scoring and
Kawerak, Inc.           Streets Improvements       $144,616    Design
                                                                              ranking
                        Design
                        Kodiak Island                                         Discussion
Kodiak Island Borough                              $125,000    Planning
                        Transportation Study                                  and consensus
                        9th and K Streets                                     Scoring and
Nenana Native Council                             $1,427,425   Construction
                        Reconstruction Phase II                               ranking
                        Anaktuvuk Pass Bridge                                 Scoring and
North Slope Borough                                $147,431    Design
                        Design                                                ranking


Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                         18


                                                                 June 2010        Project
                                                   Commission     Project        Selection
Implementing Entity         Road Project             Funds        Status*         Method
                       Selawik Boardwalk                                       Scoring and
Selawik                                             $270,000    Design
                       Reconstruction                                          ranking
Stevens Indian
                       Stevens Village                                         Scoring and
Reorganization Act                                 $1,000,000   Design
                       Community Roads                                         ranking
Village Council
                       Manley Hot Springs
U.S. Army Corps of                                                             Scoring and
                       Landing Sanitary Facility     $50,000    Design
Engineers                                                                      ranking
                       Replacement
                       Platinum Public Dock
U.S. Army Corps of     Conceptual Design,                                      Scoring and
                                                    $300,000    Planning
Engineers              Goodnews Bay Road                                       ranking
                       Connection Feasibility
U.S. Army Corps of     Statewide Technical                                     Discussion
                                                    $150,000    Construction
Engineers              Services                                                and consensus
Western Federal Lands Akhiok Tsunami Shelter                                   Scoring and
                                                    $363,000    Construction
Highway Division      Road                                                     ranking
                      Akhiok, Chefornak,
Western Federal Lands Hooper Bay and                                           Discussion
                                                     $32,925    Design
Highway Division      Kwigillngok - Subsistence                                and consensus
                      ATV Road Recon
Western Federal Lands Akiak Roads                                              Scoring and
                                                   $3,500,000   Design
Highway Division      Rehabilitation                                           ranking
Western Federal Lands Atka Roads                                               Scoring and
                                                   $1,000,000   Construction
Highway Division      Rehabilitation                                           ranking
                      Atmautluak, Nunapitchuk
Western Federal Lands                                                          Discussion
                      Tramway Railroad             $1,810,000   Construction
Highway Division                                                               and consensus
                      Renovation
Western Federal Lands Chignik Lagoon Lake IRT                                  Discussion
                                                    $150,000    Planning
Highway Division      Road Survey                                              and consensus
Western Federal Lands Gakona Access Road                                       Scoring and
                                                   $2,400,000   Design
Highway Division      Rehabilitation                                           ranking
Western Federal Lands IRT Chigniks Road                                        Scoring and
                                                    $150,000    Design
Highway Division      Survey                                                   ranking
Western Federal Lands                                                          Discussion
                      Kalskag to Yukon River        $100,000    Planning
Highway Division                                                               and consensus
Western Federal Lands King Cove Street                                         Scoring and
                                                   $1,893,537   Construction
Highway Division      Improvement                                              ranking
                      Kivalina Evacuation and
Western Federal Lands                                                          Discussion
                      Relocation Road               $138,668    Planning
Highway Division                                                               and consensus
                      Reconnaissance
Western Federal Lands Kobuk-Snowmobile                                         Scoring and
                                                    $927,090    Construction
Highway Division      Bridges                                                  ranking


Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                                      19


                                                                          June 2010          Project
                                                        Commission         Project          Selection
 Implementing Entity            Road Project              Funds            Status*           Method
                      Kwethluk Airport Roads
Western Federal Lands                                                                    Scoring and
                      Improvements and                  $2,500,000      Design
Highway Division                                                                         ranking
                      Extensions
Western Federal Lands Kwigillingok Kuicuaq                                               Discussion
                                                          $150,000      Construction
Highway Division      Slough ATV Trail                                                   and consensus
Western Federal Lands Manley Hot Springs                                                 Scoring and
                                                        $2,150,000      Design
Highway Division      Community Streets                                                  ranking
Western Federal Lands Manokotak Heights Road                                             Scoring and
                                             $3,500,000                 Design
Highway Division      Reconstruction                                                     ranking
Western Federal Lands McGrath Road                                                       Scoring and
                                                        $1,986,354      Design
Highway Division      Reconstruction                                                     ranking
Western Federal Lands Metlakatla Walden Point                                            Scoring and
                                                        $1,050,000      Complete
Highway Division      Road                                                               ranking
Western Federal Lands Shaktoolik Evacuation                                              Discussion
                                                        $1,000,000      Design
Highway Division      Road                                                               and consensus
Western Federal Lands Statewide Technical                                                Discussion
                                                          $300,000      Construction
Highway Division      Services                                                           and consensus
Western Federal Lands Stevens Village Access                                             Scoring and
                                                          $545,150      Design
Highway Division      Road                                                               ranking
Western Federal Lands Tununak ATV Geo-Tech                                               Scoring and
                                                        $2,700,000      Design
Highway Division      Trail                                                              ranking
                                                                              60 scoring and ranking
  Total Road Projects                                  $58,508,483
                                                                              15 discussion and
                                                                              consensus
* Project Status Terms
  Planning: Includes investigation of transportation needs, planning and reconnaissance engineering
  studies, dock and other waterfront development analyses, final mapping, and research.
  Design: Includes pre-construction activities, including preliminary engineering; NEPA studies; right-of-
  way and utilities analysis; plans, specifications, and estimates; and construction contract document
  development.
  Construction: Includes construction contract bidding, selection, award, and execution. Project plans are
  complete and projects are ready to go or underway.
  Complete: All phases of work have been completed and final inspections conducted.
  Cancelled/On Hold: The sponsor is unable to execute the selected project; or projects that have not
  proceeded and might be re-scoped or cancelled.

Source: OIG analysis of Commission data.




Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                                20



                                                                    June 2010        Project
                              Waterfront              Commission     Project        Selection
 Implementing Entity      Development Project           Funds        Status *        Method
Alaska Department of
                         Gustavus Small Boat                                      Scoring and
Transportation and                                      $95,200    Design
                         Float Design                                             ranking
Public Facilities
Alaska Department of
                         Gustavus Transient                                       Scoring and
Transportation and                                     $812,500    Construction
                         Vessel Mooring Facility                                  ranking
Public Facilities
Alaska Department of
                                                                                  Scoring and
Transportation and       Naukati Small Boat Float       $54,582    Design
                                                                                  ranking
Public Facilities
Alaska Department of
                         Whale Pass Small Boat                                    Scoring and
Transportation and                                      $54,582    Design
                         Float                                                    ranking
Public Facilities
Alaska Energy            Community and Barge                                      Scoring and
                                                        $71,159    Design
Authority                Landing Roads Design                                     ranking
Alaska Energy            Kwethluk Barge Landing                                   Scoring and
                                                        $36,584    Design
Authority                and Jay Hammond Road                                     ranking
                        Mekoryuk Harbor
Alaska Village Electric                                                           Scoring and
                        Repairs, Dredging, and         $571,450    Complete
Cooperative                                                                       ranking
                        Construction
                         False Pass Boat Harbor
Aleutians East                                                                    Scoring and
                         Rehabilitation and           $1,020,000   Complete
Borough                                                                           ranking
                         Expansion
Association of Village   Atmautluak Float Dock                                    Scoring and
                                                        $15,000    Construction
Council Presidents       Replacement                                              ranking
Association of Village   Kongiganak Barge                                         Scoring and
                                                       $500,000    Construction
Council Presidents       Landing                                                  ranking
                         Port of Bristol Bay Dock                                 Scoring and
Bristol Bay Borough                                   $1,700,000   Construction
                         Expansion and Repair                                     ranking
City and Borough of      Auke Bay Commercial                                      Scoring and
                                                      $1,000,000   Complete
Juneau                   Landing Facility                                         ranking
City and Borough of      Old Thomsen Harbor                                       scoring and
                                                      $1,300,000   Construction
Sitka                    Replacement                                              ranking
                         Port and Ferry Dock                                      Scoring and
City of Akutan                                         $434,000    Design
                         Improvement                                              ranking
                         Boat Harbor
                         Rehabilitation Port Multi-                               Scoring and
City of Bethel                                         $520,000    Complete
                         Facility Improvement and                                 ranking
                         Upgrade
                         Brown’s Slough Bank                                      Scoring and
City of Bethel                                         $570,000    Complete
                         Stabilization                                            ranking
                                                                                  Scoring and
City of Cordova          Boat Haulout Structures       $829,000    Construction
                                                                                  ranking

Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                            21


                                                                June 2010        Project
                            Waterfront            Commission     Project        Selection
 Implementing Entity    Development Project         Funds        Status *        Method
                       Small Boat Harbor                                      Scoring and
City of Dillingham                                 $350,000    Construction
                       Ramps                                                  ranking
                                                                              Scoring and
City of Haines         Haines Harbor Floats        $800,000    Complete
                                                                              ranking
                       Marine Industrial Center                               Scoring and
City of Hoonah                                     $300,000    Complete
                       Phase II                                               ranking
                       Knudson Cove Harbor                                    Scoring and
City of Ketchikan                                  $413,000    Complete
                       Rehabilitation                                         ranking
                       Waterfront                                             Scoring and
City of Ketchikan                                 $1,600,000   Complete
                       Reconfiguration                                        ranking
                       North Old Boat Harbor                                  Scoring and
City of King Cove                                 $1,500,000   Construction
                       Reconstruction                                         ranking
                       Pier 3 Cargo Terminal                                  Scoring and
City of Kodiak                                     $300,000    Complete
                       Repair                                                 ranking
                       Nenana Tug and Barge                                   Scoring and
City of Nenana                                     $850,000    Construction
                       Port                                                   ranking
                                                                              Scoring and
City of Nome           Low-Level Dock Float       $1,000,000   Complete
                                                                              ranking
                       Small Boat Harbor                                      Scoring and
City of Old Harbor                                $1,200,000   Construction
                       Renovations                                            ranking
                                                                              Scoring and
City of Pelican        Harbor Tee Floats           $100,000    Complete
                                                                              ranking
                       East Harbor                                            Scoring and
City of Seward                                    $1,000,000   Construction
                       Reconstruction                                         ranking
                       Boat Harbor Wave                                       Scoring and
City of Skagway                                    $500,000    Complete
                       Attenuator                                             ranking
                       Davidson Landing                                       scoring and
City of Thorne Bay                                 $100,000    Complete
                       Harbor Repairs                                         ranking
                       Heritage Harbor                                        Scoring and
City of Wrangell                                  $1,000,000   Construction
                       Transient Floats                                       ranking
                       Diomede Island Marine
                                                                              Scoring and
Kawerak, Inc.          Facilities Preliminary      $600,000    Design
                                                                              ranking
                       Engineering
                       Lake Iliamna Multiple
Lake and Peninsula                                                            Scoring and
                       Community Barge             $300,000    Design
Borough                                                                       ranking
                       Landings
North Pacific Rim      Chenega Bay Small Boat                                 Scoring and
                                              $1,138,813       Construction
Housing Authority      Harbor Rehabilitation                                  ranking
North Pacific Rim      Tatitlek Dock Design                                   Scoring and
                                                   $367,000    Complete
Housing Authority      Repairs                                                ranking




Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                      22


                                                              June 2010        Project
                            Waterfront          Commission     Project        Selection
Implementing Entity     Development Project       Funds        Status *        Method
                       Wainwright Lagoon Boat
                                                                            Scoring and
North Slope Borough    Ramp, Boat Launch         $379,212    Construction
                                                                            ranking
                       Ramp
Organized Village of                                                        Scoring and
                       Multi-Use Dock           $1,000,000   Construction
Kake                                                                        ranking
U.S. Army Corps of     Barge Landing Design -                               Discussion
                                                 $150,000    Design
Engineers              Aniak                                                and consensus
U.S. Army Corps of     Barge Landing Design -                Cancelled/On Discussion
                                                     $122
Engineers              Chuathbaluk                           Hold         and consensus
U.S. Army Corps of     Barge Landing Design -                Cancelled/On Discussion
                                                     $935
Engineers              Kipnuk                                Hold         and consensus
U.S. Army Corps of     Barge Landing Design -                               Discussion
                                                  $16,136    Design
Engineers              Kongiganak                                           and consensus
U.S. Army Corps of     Barge Landing Design -                               Discussion
                                                  $24,683    Design
Engineers              McGrath                                              and consensus
                       Barge Landing System
U.S. Army Corps of                                                          Discussion
                       Design - Statewide        $676,105    Construction
Engineers                                                                   and consensus
                       Design
                       Barge Landing System
U.S. Army Corps of                                                          Discussion
                       Design - Statewide       $1,500,000   Construction
Engineers                                                                   and consensus
                       Mooring Points
U.S. Army Corps of                                                          Scoring and
                       Chevak Mooring Points     $270,000    Construction
Engineers                                                                   ranking
                       Chignik Small Boat
U.S. Army Corps of                                                          Scoring and
                       Harbor and Harbor        $1,000,000   Construction
Engineers                                                                   ranking
                       Dredging
U.S. Army Corps of     Cordova Harbor Storm                                 Scoring and
                                                 $116,889    Design
Engineers              Breakwater                                           ranking
U.S. Army Corps of                                                          Scoring and
                       Eek Barge Landing         $300,000    Design
Engineers                                                                   ranking
U.S. Army Corps of                                                          Discussion
                       Elim Barge Landing        $300,000    Design
Engineers                                                                   and consensus
                       Kwinhagak Quinhagak
U.S. Army Corps of                                                          Discussion
                       Harbor Entrance           $200,000    Planning
Engineers                                                                   and consensus
                       Improvements
U.S. Army Corps of     Nanwalek Safe Harbor                                 Discussion
                                                 $140,000    Planning
Engineers              Study                                                and consensus
U.S. Army Corps of     Nondalton Dock and                                   Scoring and
                                                 $150,000    Planning
Engineers              Launch Ramp                                          ranking
                       Pelican Harbor
U.S. Army Corps of                                           Cancelled/On Scoring and
                       Rehabilitation              $1,017
Engineers                                                    Hold         ranking
                       Construction



Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                                      23


                                                                          June 2010          Project
                                Waterfront              Commission         Project          Selection
 Implementing Entity        Development Project           Funds            Status *          Method
U.S. Army Corps of        Perryville Dock                                                Scoring and
                                                           $87,604      Design
Engineers                 Conceptual Design                                              ranking
U.S. Army Corps of        Port Graham Public Dock                                        Discussion
                                                           $50,000      Planning
Engineers                 Reconnaissance                                                 and consensus
U.S. Army Corps of        Port Lions City Dock and                                       Discussion
                                                           $50,000      Planning
Engineers                 Ferry Terminal Repairs                                         and consensus
                          Saint Paul Harbor
U.S. Army Corps of                                                                       Scoring and
                          Improvements - Phase III        $600,000      Design
Engineers                                                                                ranking
                          Small Boat Harbor
U.S. Army Corps of        Seldovia Harbor                                                Scoring and
                                                          $200,000      Design
Engineers                 Improvements                                                   ranking
U.S. Army Corps of        Statewide Construction                                         Scoring and
                                                           $75,000      Construction
Engineers                 Inspection Services                                            ranking
Western Federal Lands                                                                    Scoring and
                      Coffman Cove Dock                 $1,650,000      Construction
Highway Division                                                                         ranking
                      Galena Barge Dock
Western Federal Lands                                                                    Scoring and
                      Planning, Design, and             $1,623,166      Construction
Highway Division                                                                         ranking
                      Construction
                          Multi-Purpose Dock                                             Scoring and
Yakutat Borough                                           $696,000      Complete
                          Construction – Yakutat                                         ranking
                                                                             51 scoring and ranking
  Total Waterfront Development Projects                $34,259,739
                                                                             12 discussion and
                                                                             consensus
* Project Status Terms
  Planning: Includes investigation of transportation needs, planning and reconnaissance engineering
  studies, dock and other waterfront development analyses, final mapping, and research.
  Design: Includes pre-construction activities, including preliminary engineering; NEPA studies; right-of-
  way and utilities analysis; plans, specifications, and estimates; and construction contract document
  development.
  Construction: Includes construction contract bidding, selection, award, and execution. Project plans are
  complete and projects are ready to go or underway.
  Complete: All phases of work have been completed and final inspections conducted.
  Cancelled/On Hold: The sponsor is unable to execute the selected project; or projects that have not
  proceeded and might be re-scoped or cancelled.

Source: OIG analysis of Commission data.




Exhibit B. Commission-Funded Transportation Projects by
Implementing Entity, Fiscal Years 2006 through 2009
                                                                                                   24




EXHIBIT C. EVALUATION CRITERIA FOR PROJECT SELECTION
SCORING AND RANKING

Evaluation                                                                                 Weighted
Criteria          Description                                                              Score
                                            Road Projects
Health and        Air and water quality, basic infrastructure quality, access to health
                                                                                              7
Quality of Life   care, water and sewer facilities, and other basic services
Public Support    Community or regional support                                               4
Project Type      Rehabilitation, reconstruction, or new construction                         3
Economic Value Road repair, reroute, or rehabilitation                                        3
                  Project stage-new start, design start, design complete or construction
Project Stage                                                                                 3
                  ready
Capital Costs     Contributions to capital costs of project                                   3
                  The primary purpose of the project is to improve a demonstrated
Safety                                                                                        2
                  safety hazard
                  Improves intermodal connections to airport, barge landing, port, or
Connectivity                                                                                  2
                  dock or reduces redundant facilities
Joint Project     Joint project funding or in-kind services                                   2
                  Ability of project to either reduce maintenance costs, or ability of
Maintenance                                                                                   2
                  project to allow a road or street to be maintained to standards

     Total Points for Road Projects                                                           31

                                 Waterfront Development Projects
Safety            The primary purpose of the project is to improve operational safety         5
Public Support    Community or regional support                                               5
                  Improves Intermodal connections to airport, barge landing, port, or
Connectivity                                                                                  4
                  dock or reduces redundant facilities
Maintenance       Reduce maintenance costs                                                    3
Operations        Project components important to safe and economic operations                3
                  The period of years repaired, rehabilitated, or constructed component
Service Life                                                                                  3
                  will last
                  Improves economic conditions locally or regionally; provides
Economic Value                                                                                2
                  intermodal connections that enhance economic values
                  Increases harbor capacity to meet new subsistence, commercial or
Harbor Capacity                                                                               2
                  charter fleet vessels
                  Project stage-new start, design start, design complete or construction
Project Stage                                                                                 2
                  ready

     Total Points for Waterfront Development Projects                                         29

Source: Denali Commission



Exhibit C. Evaluati on Criteria for Project Selection Scori ng and
Ranking
                                                                25




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
  Name                                 Title

  Gary Middleton                       Program Director

  Brenda James                         Program Director

  Jay Swartzbaugh                      Project Manager

  Christopher Minovich                 Senior Auditor

  Calvin Moore                         Analyst

  Adam Tabaka                          Analyst

  Jamila Mammadova                     Analyst

  Petra Swartzlander                   Senior Statistician

  Seth Kaufman                         Senior Counsel

  Karen Sloan                          Communications Officer

  Harriet Lambert                      Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                         26



APPENDIX. AGENCY COMMENTS



                                                         Memorandum

Subject:   INFORMATION: Federal Highway Administration
           Response to the Office of Inspector General (OIG)                        Date:   January 25, 2011
           Draft Report on DOT’s Oversight of the Denali Commission’s
           Use of Federal Transportation Funds (10U3004M000)

From:      Victor M. Mendez                                                         Reply to
           Administrator                                                            Attn. of:   HDA-AK
To:        Calvin L. Scovel III
           Inspector General (JA-1)

           The Federal Highway Administration (FHWA) is fully committed to carrying out its stewardship
           and oversight responsibilities to ensure Federal highway funds are spent on prudent transportation
           investments. Accordingly, FHWA has worked with the Denali Commission (Commission) as
           established by the Denali Commission Act of 1998 as amended by the Safe, Accountable,
           Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU). The
           Commission is an independent Federal entity intended, in part, to address some of the unique
           transportation challenges faced by Alaska's rural residents given the State's size and the
           remoteness of its communities and villages. Funds for this program have been used for road and
           resource development projects, including projects to connect rural communities, enhance
           transportation safety, and provide emergency evacuation routes.

           Although neither the statute, nor the 2006 Memorandum of Understanding between FHWA and
           the Commission, established authority for FHWA oversight of the Commission’s transportation
           project selection process or compliance with Title 23 United States Code (U.S.C.) requirements,
           FHWA has advised the Commission in establishing processes and procedures to deliver the types
           of transportation projects envisioned under the Denali Commission Act of 1998. Project selection




Appendix. Agency Comments
                                                                                                27


    responsibility was assigned by SAFETEA-LU, Section 1960 amending the Denali Access System
    Program, Section 309(b)(4) to establish a Transportation Advisory Committee (TAC) that advises
    the Commission on transportation needs and coordinates, plans, prioritizes, and facilitates the
    Commission’s transportation work. With the exception of authorizing funding from the Highway
    Trust Fund, SAFETEA-LU assigns all responsibility for identifying and carrying out projects to
    the Commission upon the advice of the TAC.

    As described in response to the following recommendations, the FHWA will continue within its
    limited statutory authority to advise the Commission on policy and project development
    procedures pursuant to effectively addressing its responsibilities for federally funded
    transportation projects. We continue to be encouraged by the Commission’s commitment in
    working with FHWA to improve its processes and procedures to deliver effective transportation
    projects.

    OIG Recommendations and FHWA Actions

    Recommendation 1: To ensure the project selection process is objective and transparent, the
    OIG recommends that the FHWA advise the Commission to either eliminate the discussion and
    consensus method or define limited circumstances in which its use is appropriate.

    Response: Concur. The Commission uses two main methods to select transportation projects.
    The project scoring and ranking method requires the Commission to publish in advance on its
    Web site selection criteria and requirements. The discussion and consensus method is designed to
    provide for decisionmaking based on professional judgment. Over 80 percent of Commission-
    funded projects accounting for 94 percent of its use of funds from 2006 through 2009 were
    selected using the project selection approach, where projects were selected using published
    criteria.

    To help enhance the transparency of the Commission’s project selection process, the FHWA has
    advised the Commission to either eliminate the discussion and consensus method or to explicitly
    define those circumstances when its use is appropriate. Based on those discussions, the
    Commission has informed FHWA that work is underway to revise its consensus method process.
    As it believes the consensus method remains a valuable tool, the Commission is developing a set
    of provisions that more clearly define the appropriate use of the consensus method during the
    project selection process and FHWA will continue to advise and collaborate with the Commission
    to address this effort. As FHWA, in its advisory capacity, has completed the recommended
    action, it considers this recommendation closed.

    Recommendation 2: To ensure the project selection process is objective and transparent, the
    OIG recommends that the FHWA advise the Commission to maintain detailed minutes, such as
    transcripts, of TAC project selection and funding discussions, including recusals from scoring and
    voting and the basis for each recusal.

    Response: Concur. While the Commission currently maintains minutes of the TAC meetings, it
    recognizes records can be improved by including additional detail. The FHWA has advised the
    Commission, and the Commission agrees, on the importance of more detailed minutes to enhance
    transparency of the project selection process and funding discussions, including recusals from

Appendix. Agency Comments
                                                                                                   28


    scoring and voting and the basis for each recusal. As FHWA, in its advisory capacity, has
    completed the recommended action, it considers this recommendation closed.

    Recommendation 3: To ensure TAC members’ selection decisions are free from conflicts of
    interest, the OIG recommends that the FHWA collaborate with the Commission to establish
    annual training for TAC members on how to avoid the appearance of or actual conflicts of
    interest.

    Response: Concur. As noted in the OIG draft report, TAC members are not required to follow
    Federal conflict of interest prevention measures, such as attending ethics training, signing ethics
    agreements, or submitting financial disclosure statements. The TAC currently operates under
    guidance which instructs TAC members to recuse themselves from voting when they, their
    employer, or a family member might benefit from a project selection.

    The FHWA has advised the Commission that the Federal model for avoiding conflict of interest
    represents sound practices that could help the Commission better assure selection decisions are
    free from actual or perceived conflicts of interest, and we have provided relevant training
    materials for the Commission’s review and consideration. Based on those discussions, the
    Commission has informed FHWA it plans to revise its TAC Roles and Responsibilities to address
    the OIG’s findings by adding a requirement that TAC members receive annual ethics training and
    certify their attendance at the training session. The FHWA reviewed the draft revised TAC Roles
    and Responsibilities and provided comments to the Commission and will continue to collaborate
    with the Commission to achieve a strengthened conflict of interest process and required ethics
    training program. As FHWA, in its advisory capacity, has completed the recommended action, it
    considers this recommendation closed.

    Recommendation 4: To ensure TAC members’ selection decisions are free from conflicts of
    interest, the OIG recommends that the FHWA collaborate with the Commission to develop a
    requirement for TAC members to certify that the appearance of or actual conflicts of interest are
    fully disclosed prior to project selection activities.

    Response: Concur. As noted in response to Recommendation 3, TAC members are not required
    to follow Federal conflict of interest prevention measures, such as attending ethics training,
    signing ethics agreements, or submitting financial disclosure statements. The FHWA has advised
    the Commission of the advisability of taking steps to better assure selection decisions are free
    from actual or perceived conflicts of interest. Based on those discussions, the Commission has
    informed FHWA it plans to revise its TAC Roles and Responsibilities to address the OIG’s
    findings and require TAC members certify either verbally or in written form, when a member has
    a conflict of interest. The certification is required to be retained in the record of the TAC
    proceedings. As FHWA, in its advisory capacity, has completed the recommended action, it
    considers this recommendation closed.

    Recommendation 5: To ensure TAC members’ selection decisions are free from conflicts of
    interest, the OIG recommends that the FHWA collaborate with the Commission to design
    mechanisms for Commission staff to verify that TAC members participate in annual training,
    fully disclose conflicts of interest, and recuse themselves appropriately.



Appendix. Agency Comments
                                                                                                  29


    Response: As noted in response to the recommendations above, TAC members are not required
    to follow Federal conflict of interest prevention measures, such as attending ethics training,
    signing ethics agreements, or submitting financial disclosure statements. As part of the discussion
    enumerated in response to the previous recommendations, the FHWA has included information
    relating to the importance of maintaining records to verify that all TAC participants receive ethics
    training and disclose any potential conflicts of interest prior to project selection activities and
    recusal. As FHWA, in its advisory capacity, has completed the recommended action, it considers
    this recommendation closed.

    Recommendation 6: To ensure that the Commission receives the information and
    documentation necessary to determine whether transportation projects are constructed in a fiscally
    sound, efficient, effective, and appropriate manner, the OIG recommends that the FHWA
    collaborate with the Commission to develop an oversight process that specifies the Commission’s
    responsibilities and actions to verify that grantee-supplied information demonstrates compliance
    with applicable Title 23 U.S.C. requirements.

    Response: Concur. While the Commission has processes and agreements in place to address
    compliance with Title 23 U.S.C., those oversight processes can be strengthened by specifying the
    Commission’s responsibilities and actions to verify that grantee-supplied information
    demonstrates compliance with applicable Title 23 U.S.C. requirements. These actions can be
    targeted to enhance the program within the resources available to the Commission. We have
    provided FHWA’s program and risk analysis standard operating procedures as a framework for
    the Commission’s use and will continue to provide technical assistance to help the Commission
    further strengthen its oversight review and processes. As FHWA, in its advisory capacity, has
    completed the recommended action, it considers this recommendation closed.

    The FHWA appreciates the OIG’s efforts throughout the audit. We particularly appreciate the
    time and effort that the OIG staff has devoted to the report and allowed for this response, which
    has enabled FHWA staff to ensure that the points were fully and effectively addressed by the
    Commission. The FHWA is committed to continuing to provide advisory and technical
    assistance to the Commission. We are also committed to continuing to collaborate with the
    Commission as it takes additional measures to further implement ethics reforms and steps to
    strengthen its oversight processes and transparency. If you have any questions or comments
    regarding this response, please contact David Miller, FHWA Alaska Division Administrator on
    (907) 586-7180.




Appendix. Agency Comments
